      Department of Homeland Security




     FEMA Public Assistance Grant Funds Awarded to the 

      Alaska Department of Transportation and Public 

       Facilities, Central Region, Anchorage, Alaska





DS-12-12                                          July 2012

                                       OFFICE OF INSPECTOR GENERAL
                                           .Department of Homeland Security
                                             Washington, DC 20528 / www.oig.dhs.gov


                                           July 18, 2012

     MEMORANDUM FOR:




     FROM:




     SUBJECT:                               FEMA Public Assistance Grant Funds Awarded to the
                                            Alaska Department of Transportation and Public Facilities,
                                            Central Region, Anchorage, Alaska
                                            FEMA Disaster Number 1865-DR-AK
                                            Audit Report Number DS-12-P

     We audited public assistance (PA) grant funds awarded to the Alaska Department of
     Transportation and Public Facilities, Central Region, Anchorage, Alaska (Department),
     Public Assistance Identification Number 000-U0291-00. Our audit objective was to
     determine whether the Department accounted for and expended Federal Emergency
     Management Agency (FEMA) PA grant funds according to Federal regulations and FEMA
     guidelines.

     The Alaska Division of Homeland Security and Emergency Management (Grantee)
     awarded the Department $lA22,996, primarily related to roadway washout damages
     resulting from severe storms, flooding, mudslides, and rockslides during the period from
     October 6 tbrough 11, 2009 . .The award provided 75 percent FEMA funding for seven
                                   1
     large and five small projects. Our audit covered the period from October 6, 2009, to
     November 28, 2011. We audited the contract costs for 11 of the projects awarded for a
     total of $lA14,762. The award amount generally represents FEMA's estimate of actual
     costs to repair damaged facilities to their predisaster condition, and will be adjusted by
     FEMA during the grant closeout to actual eligible costs. During this process, FEMA will
     review the final claim and determine if the claimed costs are eligible for reimbursement.
     As of our audit cutoff date of November28,2011, the final claim had not been prepared
     or submitted. Consequently, our audit was based onthe Departmenfs internal
     accounting charges of$2,081,864 (see Exhibit, Schedule of Projects Audited) to the
     FEMA disaster projects, representing a net overrun of about 46 percent of the
-j
     $1.4 million award amount.
 !



     1   Federal regulations in effect at the time of the disaster set the large project threshold at $63,200.
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   We conducted this performance audit between June 2011 and November 2011
   pursuant to the Inspector General Act of 1978, as amended, and according to generally
   accepted government auditing standards. Those standards require that we plan and
   perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
   basis for our findings and conclusions based upon our audit objective. We believe that
   the evidence obtained provides a reasonable basis for our findings and conclusions
   based upon our audit objective. We conducted this audit applying the statutes,
   regulations, and FEMA policies and guidelines in effect at the time of the disaster.

   We interviewed FEMA, Grantee, and Department officials; reviewed judgmentally
   selected project costs (generally based on dollar value); and performed other
   procedures considered necessary to accomplish our objective. We did not assess the
   adequacy of the Department’s internal controls applicable to grant activities because it
   was not necessary to accomplish our audit objective. We did, however, gain an
   understanding of the Department’s methods of accounting for disaster-related costs
   and its procurement policies and procedures.


                                      RESULTS OF AUDIT

   The Department did not comply with applicable contract procurement requirements
   and also did not request overruns in accordance with FEMA regulations and guidance.
   As a result of the improper procurement, we questioned the eligibility of all contract
   costs of $2,032,157 charged to FEMA projects. Of that amount, we also questioned
   $811,230 because the charges exceeded the amount awarded by FEMA for 9 of the 11
   projects. In addition to these findings, we reported as an “Other Matter” procedures
   that should be improved in the Grantee’s training and monitoring of applicants during
   the preaward and recovery process to ensure compliance with the grant award.

   Finding A: Contract Procurement

   The Department did not follow either Federal or State of Alaska contract procurement
   requirements when it awarded two contracts for flood repairs in the Kodiak area, each
   for $307,110, to separate contractors. For example, it did not obtain competitive sealed
   bids or contractor cost data as required. Instead, the Department improperly invited
   specific contractors to submit quotes using small procurement procedures that are
   generally limited to contracts under $100,000. Under the “Invitation for Quotes,” the
   Department awarded two time-and-material contracts. The contract documents for the
   two contracts set a $1 million ceiling for each contractor and provided rates for six types
   of equipment.


www.oig.dhs.gov                                 2                                         DS-12-12
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   The contracts did not include a cost estimate by site or project. The scope of work for
   the two contracts was broadly worded and said that the contractors were to furnish all
   construction resources, such as supervision, labor, equipment, and materials, to repair
   flood-damaged sections of Rezanof Drive, Anton Larson Bay Road, Chiniak Highway, and
   Pasagshak Road to preflood conditions as directed by the Department representative.
   In contrast, FEMA’s approved project worksheets included a cost estimate per damage
   site and specific roadway locations. For example, one of the project worksheet sites for
   project number 41 included the repair of Anton Larson Bay Road at MP 4.0. The project
   worksheet also detailed the work to be performed, including repair of the road surface,
   embankment, and culvert; and specific dimensions and materials required for each type
   of damage. As a result, the scope of work in the contracts cannot be reconciled with the
   FEMA-approved project worksheets.

   Federal and State of Alaska procurement statutes, regulations, and guidelines require
   the following:

       •	 Contractors are to be selected through competitive sealed bids [Alaska Statute
          (AS) 36.30.100].

       •	 When a waiver of competitive procedures is needed due to emergency conditions,
          a written determination by the chief procurement officer of the basis for the
          emergency and the selection of the particular contractor must be included in the
          contract file (AS 36.30.310).

       •	 In the absence of adequate price competition, the contractor or prospective
          contractor shall submit cost and pricing data before an award of a contract or a
          change order or contract modification (AS 36.30.400).

       •	 Applicants should avoid using time-and-material contracting. FEMA may provide
          assistance for work completed under such contracts for a limited period
          (generally not more than 70 hours) that is necessary immediately after the
          disaster has occurred when a clear scope of work cannot be developed. In all
          cases, a cost ceiling, or “not-to-exceed” provision, must be included in the
          contract, and a competitive process should be used for all of the labor and
          equipment rates (FEMA Public Assistance Guide, FEMA 322, June 2007).

       •	 Procurements for construction that do not exceed an aggregate dollar amount of
          $100,000 may be made in accordance with regulations adopted by the
          commissioner for small procurements. They shall be made with competition



www.oig.dhs.gov                                3                                 	      DS-12-12
                                OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security

           that is practicable under the circumstances, and shall give adequate public notice
           of intent to make the procurement (AS.36.30.320).

   The Department did not follow the Federal or State requirements in procuring its 

   contracts:


       •	 Specific contractors were invited to submit quotes, instead of the required
          competitive sealed bids.

       •	 No waiver of competitive requirements was documented for the 14 percent of
          contract charges that were incurred on emergency projects.

       •	 Small procurement procedures that have a $100,000 limit were used for these
          two contracts, under which the Department charged about $2 million to FEMA
          projects, as well as about $1.6 million in additional charges to non-FEMA
          accounts, for a total of $3.6 million. 2

       •	 No evidence exists that a cost or price analysis was conducted for the preaward
          or change order proposals that are required in the absence of adequate price
          competition.

           o	 While the quotes in the initial proposal included rates for six types of
              equipment, the actual number of different types of equipment (including
              standby rates) billed was more than 10 times that amount.

           o	 Thus, the rates for most of the equipment used were not included in the
              quotes that formed the basis for the original contract award.

           o	 Rather, the rates used for more than 91 percent of the equipment items
              billed were included in change orders for which the Department neither
              obtained competitive bids nor performed a cost analysis to determine the
              reasonableness of the rates.

       •	 The Department paid contractors’ billings that exceeded the cost ceilings under
          both contracts.

   The procurement process used by the Department officials was not in compliance with
   the Federal or State competitive requirements, and did not otherwise provide assurance


   2
    Included costs for projects funded by another Federal agency as well as the Department’s maintenance
   projects; $2,032,157 of the contractors’ billings was charged to FEMA-eligible projects.

www.oig.dhs.gov                                      4                                       	       DS-12-12
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security

   that the price paid to the contractors was reasonable, as required. FEMA included a
   statement in the project worksheets to the effect that the Department elected to utilize
   a time-and-material-type contract that is not an eligible means of determining reasonable
   costs. FEMA added that all actual costs submitted by the Department will be evaluated
   for reasonableness and reimbursed accordingly. We question the eligibility of the total
   contract charges to all FEMA projects of $2,032,157 owing to the Department’s
   noncompliance with State and Federal contracting requirements.

   Department and Grantee officials generally agreed that the Department did not comply
   with State and Federal procurement requirements. However, the Grantee officials
   contend that the Department’s historical procedures for contract procurement and
   monitoring provided assurance of cost reasonableness and eligibility. FEMA was unable
   to make a determination at this time.

   Finding B: Overruns

   The Department did not request approval for $811,230 in overruns of FEMA projects.
   Despite their not obtaining the required approval, Department officials told us they plan
   to submit claims for overruns on all projects. For 9 of the 11 projects included in the
   audit scope, the costs charged by the Department exceeded FEMA’s cost estimate for
   the project.

   In addition to the noncompliance with contract procurement requirements discussed in
   finding A, the issue of overruns was exacerbated because the contractor performed
   non-FEMA repairs in the same general area as the FEMA repairs. Although our audit did
   not disclose any duplicative charges, the identification of charges to the appropriate
   project could not be assured.

   Federal grant regulations require that—

       •	 Costs be adequately documented to be allowable under a Federal award (2 CFR,
          Part 225, Appendix A, Section C.1.j).

       •	 Subgrantees have fiscal controls and accounting procedures that permit the
          tracing of funds to a level of expenditure adequate to establish that such funds
          are not used in violation of applicable laws (44 CFR 13.20(a)(2)).

       •	 Generally, disaster assistance will not be made available by FEMA for damaged
          facilities when another Federal agency has specific authority to fund those
          disaster repairs (44 CFR 206.226(a)).



www.oig.dhs.gov                                5                                 	      DS-12-12
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security

       •	 Work must be required as a direct result of the declared disaster (44 CFR 

          206.223(a)(1)).


       •	 The subgrantee must submit a written request to the Grantee before
          expenditures are made if a cost overrun is expected. The request must include
          an itemized list of expenses and the reason for the overrun (Alaska grantee­
          subgrantee assurances and agreements, page 1, item 3).

       •	 Requests for net small project overruns must be submitted through the Grantee
          to FEMA in the form of an appeal within 60 days of the completion of all of that
          applicant’s small projects (FEMA’s Public Assistance Guide, FEMA 322, June 2007).

   The Department did not meet Federal and State requirements for obtaining approval for
   project overruns and documenting those costs:

       •	 The Department provided Daily Work Reports as the primary basis for its
          contract charges to each project. Those reports generally noted roadway
          locations, labor hours, equipment hours, and materials used. However, the
          reports were not reliable for independent verification that the charges were
          eligible for the FEMA projects shown because—

           o	 They were not timely completed. For example, reports for October 19 and
              21, 2009, were not completed until November 3.

           o	 They were not always signed by both the contractor and the Department.
              For example, reports for November 20 and 24, 2009, were not signed by the
              Department.

           o	 They could not be reconciled with a Department work order or similar
              system that identified a specific scope of work to be performed for each
              project, period of performance, and resources required.

       •	 The Department’s charges to the FEMA projects included substantial
          unapproved overruns of the FEMA-approved estimates (eligible amounts). The
          Department submitted no written request for approval with justification of the
          overruns to the Grantee or FEMA prior to project completion. Examples of the
          overruns are shown in table 1:




www.oig.dhs.gov                                6                                 	       DS-12-12
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security

                           Table 1: Examples of Project Overruns
                           Eligible   Amount Charged    Amount of  Overrun
            Project No.   Amount         to FEMA         Overrun  Percentage
                26         $21,290           $84,137      $62,847    295%
                32           $9,044          $67,880      $58,836    651%
                47        $112,878         $404,682      $291,804    259%

   For the work to be eligible for FEMA reimbursement, the Department must demonstrate
   that the work was for damages caused by the declared disaster and that it was not
   eligible under another Federal agency’s authority. Project records identified that the
   Department combined repair work funded from multiple sources into one contract, did
   not define work scope in the contract, and did not have an adequate work order system.
   The substantial overruns are an indicator that the charges to FEMA projects by the
   Department may not have been properly made. Therefore, we question the $811,230 in
   overrun charges.

   Department officials disagreed with our findings. They said that the charges were
   justified based on the Department’s daily reports and summary documentation, and
   that overruns had been shown on the quarterly progress reports. Grantee officials
   concurred with the Department’s comments but said that they had not reviewed
   documentation for any of the projects. FEMA officials were unable to make a
   determination.

   Other Matter: Grantee Monitoring

   Our review disclosed a need for improvement in the preaward training of potential
   applicants to ensure compliance with the eligibility requirements, especially as they
   pertain to procurement, documentation, and overruns. In addition, the Grantee needs
   to improve its monitoring of the grants awarded under the PA program to ensure the
   applicants’ compliance with the requirements and to take timely corrective action when
   appropriate. FEMA’s Public Assistance Guide (FEMA 322, chapter 1, page 3 (June 2007))
   provides that the State, acting as the Grantee for the PA Program, is responsible for
   educating potential applicants and working with FEMA to manage the program, and for
   implementing and monitoring the grants awarded.

   Based on the Department’s noncompliance with required procedures in such areas as
   contract procurement, time-and-material contracting, and requests for overrun
   approval, we determined that the Grantee should improve its training and monitoring
   process to ensure the Department’s adherence to the requirements.



www.oig.dhs.gov                              7                                         DS-12-12
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security

   Examples in which the Department might have benefited from more training and closer
   monitoring by the Grantee are as follows:

       1.	 Grantee guidance did not stress the State of Alaska statutory requirements for
           obtaining competitive sealed bids, as well as other procurement requirements.
           Further, the Grantee’s position that irrespective of contract practices, the costs
           are acceptable because they are consistent with historically similar work may
           send mixed signals to the Department that compliance with the applicable
           procurement requirements is not mandatory.

       2.	 Grantee guidance for time-and-material contracts clearly specified that this type
           of contracting should be avoided but may be allowed for work that is necessary
           during the first 70 hours after the disaster. However, documentation showed
           that the Grantee was aware of the time-and-material contracting early in the
           contracting process, but no effort was made to require the Department to
           terminate this form of contracting after the immediate emergency period.
           Further, the Grantee’s position that the incurred costs are reasonable, and that it
           is confident that all of the work was strictly monitored by onsite Department of
           Transportation personnel, may send mixed signals to the Department that this
           form of contracting is acceptable, even after the immediate emergency period.

       3.	 Grantee guidance specified that the Department, if it expects to have a cost
           overrun, is required to submit a written request to the Grantee before the
           expenditures are made, identifying the reason for the overrun and itemizing the
           expenses. The Grantee did not document any efforts to monitor the overruns
           and ensure that the Department followed its guidance for obtaining overrun
           approvals.

   Based on these examples, as well as other deficiencies presented in our report, we
   determined that the Grantee should have employed increased proactive measures to
   ensure the Department’s compliance with the eligibility requirements of FEMA’s PA
   Program, and to avoid the improper use of grant funds.


                                    RECOMMENDATIONS

   We recommend that the Regional Director, FEMA Region X:

       Recommendation #1: Disallow $2,032,157 (Federal share $1,524,118) of ineligible
       costs related to improper procurement, unless FEMA makes an affirmative decision



www.oig.dhs.gov                                 8                                   	      DS-12-12
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security

       that all or part of the contract costs are fair and reasonable and waives the Federal
       (44 CFR 13.6(c)) and State procurement requirements (finding A).

       Recommendation #2: Disallow $811,230 (Federal share $608,423, also disallowed
       in recommendation #1) of ineligible contract costs due to insufficient
       documentation for unapproved overruns (finding B). To avoid duplication of costs
       questioned in recommendation #1, these costs should not be deducted to the extent
       of FEMA’s disallowance of costs questioned in recommendation #1.

       Recommendation #3: Advise the Grantee that applicants may benefit from more
       preaward training on procurement requirements and closer monitoring of their
       grant management throughout the recovery process, especially in regard to contract
       procurement and overrun procedures.


                  DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP

   We discussed the audit results with Department officials during our audit and included
   their comments in this report, as appropriate. We provided written summaries of our
   findings and recommendations in advance to FEMA, Grantee, and Department officials
   and discussed them at exit conferences held with FEMA on November 29, 2011, and
   with Grantee and Department officials on November 28, 2011. Department and
   Grantee officials concurred with finding A but did not concur with finding B. FEMA
   officials withheld their comments for further analysis.

   Within 90 days of the date of this memorandum, please provide our office with a
   written response that includes your (1) agreement or disagreement, (2) corrective
   action plan, and (3) target completion date for each recommendation. Also, please
   include responsible parties and any other supporting documentation necessary to
   inform us about the current status of the recommendations. Until your response is
   received and evaluated, the recommendations will be considered open and unresolved.

   Consistent with our responsibility under the Inspector General Act, we are providing
   copies of our report to appropriate congressional committees with oversight and
   appropriation responsibility over the Department of Homeland Security. We will post
   the report on our website for public dissemination.

   Major contributors to this report are Humberto Melara, Western Regional Office
   Director; Jack Lankford, Audit Manager; and Connie Tan, Auditor.

   Please call me with any questions, or your staff may contact Humberto Melara at (510)
   637-1463.
www.oig.dhs.gov                                 9                                         DS-12-12
                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security

                                                                                                EXHIBIT 




                               Schedule of Projects Audited

                         October 6, 2009, to November 28, 2011

          Alaska Department of Transportation and Public Facilities, Central Region

                          FEMA Disaster Number 1865-DR-AK

                                                             Cost Recommended for
                                                                  Disallowance

                                               Project       Contract                        Total
        Project     Project      Project       Charges     Procurement       Overrun       Findings
       Number       Award        Charges       Audited       Finding A      Finding B*       (A-B)
          26         $21,290      $84,137       $84,137         $84,137        $62,847       $84,137
          31         187,505      152,060       152,060         152,060                      152,060
          32            9,044      67,880        67,880           67,880         58,836       67,880
          40          92,039       96,642        78,281           78,281          4,603       78,281
          41         460,519      351,836       351,836         351,836                      351,836
          42          24,401       38,794        38,794           38,794         14,393       38,794
          44          34,425       81,519        81,519           81,519         47,094       81,519
          45         184,727      210,844       179,498         179,498          26,117      179,498
          46         131,200      258,922       258,922         258,922         127,722      258,922
          47         112,878      404,682       404,682         404,682         291,804      404,682
          48         156,734      334,548       334,548         334,548         177,814      334,548
         51**           8,234
       Total
       Audited
       Project    $1,422,996    $2,081,864   $2,032,157      $2,032,157       $811,230    $2,032,157

           *To avoid duplication, these costs will not be deducted if FEMA concurs with finding A.
           **Project was not audited. At the time of our fieldwork, the Department had not charged costs
              to the project.




www.oig.dhs.gov                                     10                                               DS-12-12
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


                                                                            APPENDIX 

                                      Report Distribution

   Department of Homeland Security

   Secretary
   Chief Financial Officer
   Under Secretary for Management
   Audit Liaison

   Federal Emergency Management Agency

   Administrator
   Chief of Staff
   Chief Financial Officer
   Chief Counsel
   Director, Risk Management and Compliance
   Chief Procurement Officer
   Audit Liaison (Job Code G-11-048)
   PA Branch Chief, Region X
   Director, Grants Program, Region X
   Audit Liaison, Region X
   Audit Followup Coordinator, Region X

   Grantee (Alaska Division of Homeland Security and Emergency Management)

   Director
   Deputy Director
   Disaster Assistance Branch Chief

   Subgrantee (Alaska Department of Transportation, Central Region, Anchorage, Alaska)

   Project Engineer
   Regional Director




www.oig.dhs.gov                               11                                  DS-12-12
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or fax it
directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
